Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





QUALITY CONCERNS IDENTIFIED 

     THROUGH QUALITY 

 IMPROVEMENT ORGANIZATION 

  MEDICAL RECORD REVIEWS





                    Daniel R. Levinson

                     Inspector General 


                       May 2007

                     OEI-01-06-00170

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                    S U M M A R Y                     



                  OBJECTIVE
                  To determine (1) the extent to which Quality Improvement
                  Organizations (QIO) identify quality-of-care concerns through medical
                  record reviews, and (2) what interventions QIOs take in response to
                  confirmed concerns.


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  QIOs to oversee and enhance the quality of care within Medicare and to
                  protect over 40 million Medicare beneficiaries. QIOs are organizations
                  that comprise medical professionals who work with health care
                  providers on quality improvement initiatives and review medical
                  records to ensure that care meets professional standards. In December
                  2005, the Senate Committee on Finance requested that the Office of
                  Inspector General (OIG) evaluate the QIOs’ role in protecting
                  beneficiaries from poor quality of care.

                  QIOs review medical records for quality, payment, utilization, or non-
                  coverage concerns. For quality concerns, QIO reviewers conduct a full
                  quality review. For other concerns, the reviewers screen for potential
                  quality concerns. If this screening identifies a potential quality concern,
                  the QIO conducts a subsequent full quality review on that case. In the
                  first step of a full quality review, a nonphysician reviewer examines the
                  medical records for potential concerns. CMS defines quality concerns as
                  those in which care given “results in a significant or potentially
                  significant adverse effect on the patient.” If the nonphysician reviewer
                  identifies a potential quality concern, a physician reviews the medical
                  records to either confirm or resolve the concern. In cases with a
                  confirmed concern, QIOs can recommend corrective actions meant to
                  address the concern. QIOs have discretion in determining whether to
                  recommend a corrective action, which can range from offering advice to
                  providers about care to recommending that OIG sanction the provider.

                  We analyzed QIO-reported case review data for all cases that QIOs
                  selected for review between February 1, 2003, and January 31, 2006.
                  We also reviewed documentation and interviewed staff from three QIOs.




OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS          i
E X E C U T I V E              S U     M M A R Y 




                   FINDINGS
                   QIOs selected over 300,000 cases for review between February 1,
                   2003, and January 31, 2006, and reviewed about 11 percent of them
                   for quality of care. QIOs selected 318,018 cases for review during this
                   time. The most common reasons QIOs selected cases were for payment-
                   related reviews. QIOs completed full quality-of-care reviews on
                   34,768 cases. Beneficiary and anonymous complaints were the most
                   common reasons QIOs performed quality reviews, accounting for
                   39 percent of all completed quality reviews.
                   QIOs confirmed a quality concern in about 19 percent of those
                   cases that received a quality-of-care review. QIOs confirmed one or
                   more quality concerns in 6,439 cases. QIOs assigned one of the two
                   lowest classifications, “care could reasonably have been expected to be
                   better,” or “care failed to follow generally accepted guidelines and usual
                   practice” to more than 80 percent of the cases with a confirmed quality
                   concern. Cases that did not originally require a quality review proved to
                   be a rich source of confirmed quality concerns. These cases, most of
                   which were originally selected for payment-related reviews, comprised
                   61 percent of all cases with a confirmed quality concern.
                   QIOs recommended a corrective action in 72 percent of those cases
                   with a confirmed quality concern. QIOs recommended
                   5,125 corrective actions in 4,645 cases with a confirmed concern (a
                   single case can have multiple corrective actions). The two least severe
                   corrective actions accounted for almost 70 percent of all recommended
                   corrective actions. QIOs rarely initiated sanction activity in response to
                   a confirmed concern. QIOs imposed no corrective actions in 1,794 cases
                   (28 percent) with a confirmed quality concern.


                   CONCLUSION
                   Our evaluation documents the scope of QIOs’ quality review activities
                   between February 1, 2003, and January 31, 2006. QIOs have long had
                   the potential to be an essential frontline mechanism through which
                   Medicare can oversee the quality of care for which it pays.

                   However, QIOs assigned more than 80 percent of confirmed quality
                   concerns to one of the two least serious classifications, “care could
                   reasonably have been expected to be better” or “care failed to follow
                   generally accepted guidelines or usual practice.” Likewise, 70 percent of
                   the corrective actions that QIOs recommended either called for


 OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS         ii
E X E C U T I V E              S U     M M A R Y


                   providers to consider an alternative approach to future care or offered
                   advice. These are the two least severe corrective actions available to
                   QIOs. QIOs recommended the two most severe actions, initiation of
                   sanction referral and referral to a licensing board, in less than 2 percent
                   of the corrective actions during this 3-year period.

                   Outside the QIO program and its authorities, Medicare has no other
                   single mechanism with a comparable scope to perform case reviews and
                   take such a range of corrective actions with providers. However, this
                   review raises questions for CMS to consider in its administration of the
                   QIO program. CMS should consider whether it needs to revisit its
                   guidance regarding classifications of confirmed quality concerns and
                   corrective actions.


                   AGENCY COMMENTS
                   CMS noted that it is currently evaluating the QIO case review process
                   for reviewing and classifying quality-of-care concerns. CMS also
                   recently implemented a revised array of quality improvement activities
                   (formerly known as corrective action plans) for QIOs to recommend to
                   providers. QIOs can recommend these new improvement activities even
                   in cases where they did not identify quality-of-care concerns. CMS now
                   requires QIOs to implement quality improvement activities in a certain
                   percentage of cases in which QIOs do identify quality-of-care concerns.
                   CMS’s comments did not warrant any revisions to the results of our
                   review.




 OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS         iii
Δ   T A B L E          O F            C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 

                    QIOs performed quality reviews on 34,768 cases . . . . . . . . . . . . . 10 


                    QIOs confirmed a quality concern in 6,439 cases . . . . . . . . . . . . . 12 


                    QIOs recommended a corrective action in 4,645 cases . . . . . . . . . 14 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 

                    A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                    B: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27 

Δ   I N T R O D U C T I O N                             



                  OBJECTIVE
                  To determine (1) the extent to which Quality Improvement
                  Organizations (QIO) identify quality-of-care concerns through medical
                  record reviews, and (2) what interventions QIOs take in response to
                  confirmed concerns.


                  BACKGROUND
                  Quality Improvement Organizations
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  QIOs, formerly known as Peer Review Organizations, to oversee and
                  enhance the quality of care within the Medicare program and to protect
                  over 40 million Medicare beneficiaries. QIOs are organizations that
                  comprise medical professionals (largely physicians and nurses),
                  epidemiologists and statisticians. In addition to contracting as
                  Medicare QIOs, these 39 organizations often hold contracts to conduct
                  medical review and quality improvement activities for States, the
                  Department of Veterans Affairs, private health plans, and other
                  entities. Further, CMS frequently contracts with QIOs to conduct
                  special initiatives and demonstration projects.

                  Within Medicare, QIOs work with health care providers on quality
                  improvement initiatives and review medical records to ensure that care
                  meets professionally recognized standards. Pursuant to statute, QIOs
                  must review the medical services rendered by individual practitioners
                  and institutional providers to determine whether:

                      •	   services were reasonable and medically necessary and whether
                           they were reimbursable under program guidelines,

                      •	   the quality of services met professionally recognized health care
                           standards, and

                      •	   inpatient services could be effectively provided more

                           economically in another setting.1

                  QIOs sign 3-year contracts, called statements of work, with CMS to
                  provide services in the 50 States, the District of Columbia, Puerto Rico,




                    1 Social Security Act § 1154(a)(1)(A-C).




OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS         1
I N T R O D        U C T      I O N


                    and the U.S. Virgin Islands. Funding for the QIO program totaled
                    $1.15 billion in the Seventh Statement of Work (from 2002-2005).2
                    In August 2005, QIOs began implementing the Eighth Statement of
                    Work, which emphasizes broad activities aimed at improving the overall
                    level of care provided by all Medicare providers but also retains their
                    beneficiary protection role. Funding for the Eighth Statement of Work
                    (2005-2008) is projected to increase to about $1.2 billion.3
                    Mandatory Review Responsibilities
                    In addition to having a contractual emphasis on improving the overall
                    quality of care, QIOs also have a statutory and contractual
                    responsibility to review individual instances of care provided to
                    Medicare beneficiaries.4 QIOs meet this mandate by reviewing medical
                    records. See Table 1 on page 6 for a list of QIO review responsibilities.

                    Care provided by both institutional providers and individual
                    practitioners can be subject to the medical record review process. In
                    this report we use the term “provider” to include one or both of these
                    groups unless specified otherwise.
                    Overview of the QIO Medical Record Review Process
                    QIOs review medical records for quality, payment, utilization, or non-
                    coverage concerns. For quality concerns, QIO reviewers conduct a full
                    quality review. For other concerns, the reviewers screen for potential
                    quality concerns. If this screening identifies a potential quality concern,
                    the QIO conducts a subsequent full quality review on that case.
                    Quality concerns are those in which the care given “results in a
                    significant or potentially significant adverse effect on the patient.”5
                    In the first step of a full quality review, a nonphysician reviewer
                    examines the medical records for potential concerns. If the reviewer
                    identifies a potential quality concern, he or she refers the case to a
                    physician reviewer who analyzes the clinical decisions made during


                      2 The American Health Quality Association, “Medicare Beneficiary Protection by the

                    Numbers.” Available online at http://www.ahqa.org/pub/189_1085_5234.cfm.
                    Accessed February 16, 2007.
                      3 Ibid.
                      4 Social Security Act § 1154(a)(4)(A) and QIO Seventh Statement of Work, Task 3:

                    Improving Beneficiary Safety and Health Through Medicare Beneficiary Protection
                    Activities.
                     5 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                    Manual,” Chapter 4 – Case Review (4105), rev. 2, July 11, 2003.



 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                         2
I N T R O D        U C T      I O N


                    care. If the nonphysician reviewer does not identify a potential quality
                    concern, the quality review is completed. If the first-level physician
                    review finds that care did not meet professional standards, the QIO
                    offers the provider who rendered that care the opportunity to discuss
                    the case and offer additional documentation. If the provider does not
                    respond to this opportunity, the QIO reviewer makes a determination
                    based on available data and the initial review. If the provider does
                    respond with additional information, the QIO conducts a second-level
                    physician review. If this review confirms the quality concern, providers
                    who disagree can request a reconsideration. In this case, another QIO
                    physician reviewer not involved in the prior reviews conducts a third-
                    level review.

                    Following the review of all pertinent information in the final level of
                    review, the reviewer makes a determination regarding the care given.6
                    Once a quality concern is identified, the physician reviewer may
                    determine that no substantial improvement opportunities could be
                    identified, or that care could have been better. If the reviewer
                    determines that care could have been better (confirms a quality
                    concern), he or she classifies the care into one of three categories, based
                    on CMS instructions:

                        •	   Care provided was a gross and flagrant violation;7
                        •	   Care failed to follow generally accepted guidelines/usual
                             practice;8 or
                        •	   Care could reasonably have been expected to be better.9

                    The governing statute, regulations, and the QIO Manual also require
                    the reviewer to determine if the care constitutes a substantial




                     6 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                    Manual,” Chapter 4 – Case Review (4310-4320), rev. 2, July 11, 2003.
                      7 42 CFR § 1004.1(b) defines a gross and flagrant violation as one that “occurred in one or
                    more instances which presents an imminent danger to the health, safety, or well-being of a
                    program patient or places the program patient unnecessarily in high-risk situations.”
                      8 Centers for Medicare & Medicaid Services, Transmission of Policy System Control
                    Number: QIO 2003-14, December 22, 2003. CMS instructs QIOs that a concern given this
                    classification may support a determination that “a substantial violation in a substantial
                    number of cases” occurred as described in 42 CFR § 1004.1.
                      9 Centers for Medicare & Medicaid Services, Transmission of Policy System Control
                    Number: QIO 2003-14, December 22, 2003.



 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                              3
I N T R O D        U C T         I O N


                    violation in a substantial number of cases.10 The QIO database we
                    analyzed does not indicate whether a particular case is part of such a
                    violation. If the reviewer does not confirm a quality concern, no
                    further action is necessary.
                    Corrective Actions Following Confirmed Concerns
                    When QIOs confirm a quality concern in the medical record review
                    process, they must notify the provider(s) involved. Unless the concern
                    poses severe risk, is a gross and flagrant violation, or is indicative of a
                    pattern of poor care that would indicate a substantial violation in a
                    substantial number of cases, CMS does not require the QIO to take
                    further action.11 CMS provides guidance to QIOs regarding corrective
                    actions their physician reviewers can recommend in response to a
                    confirmed quality-of-care concern.12
                    One corrective action QIOs can take is to recommend that the provider
                    develop a quality improvement plan. Such plans are meant to improve
                    the system or process of delivering care.13 In contrast to the corrective
                    action plans described below, the quality improvement plans are not
                    identified in any statute or regulation or the QIO Manual, and CMS
                    provides no guidance on their structure or requirements. QIOs may
                    offer providers suggestions and guidelines for the plans; providers then
                    develop and submit their plans to QIOs for approval. Providers must
                    also evaluate the effectiveness of the plans and send results to the QIO.
                    QIOs may request additional medical records for review to determine if
                    the plan has been effective in addressing the concern.

                    For cases in which the QIO determines there is a gross and flagrant
                    violation, or a substantial failure to comply with any obligation in a
                    substantial number of cases, the QIO must determine if a corrective
                    action plan is appropriate. If a corrective action plan is not appropriate,
                    or if a provider has not successfully completed one, the QIO must
                    recommend to the Office of Inspector General (OIG) that the provider be



                      10 Social Security Act § 1156(a)(1)(A); 42 CFR § 1004.30(c); “Quality Improvement
                    Organization Manual,” Chapter 4 – Case Review (4000, 4105), rev. 2, July 11, 2003;
                    Chapter 9 – Sanction and Abuse Issues (9000), rev. 12, October 3, 2003.
                     11 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                    Manual,” Chapter 4 – Case Review (4700), rev. 2, July 11, 2003.
                      12 Centers for Medicare & Medicaid Services, Transmission of Policy System Control
                    Number: QIO 2003-14, December 22, 2003.
                      13 Ibid.




 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                         4
I N T R O D        U C T      I O N


                    sanctioned.14 If OIG agrees with the sanction recommendation, it will
                    either exclude the provider from Federal health care programs for no
                    less than 1 year or impose civil monetary penalties.15
                    Among other factors, QIOs consider the severity of the case, previous
                    problems, and previous attempts to resolve the issues to determine if a
                    sanction referral is appropriate. A corrective action plan is specific to
                    the sanction process, while quality improvement plans are used in less
                    severe cases. Pursuant to statute, QIOs must also notify the State
                    medical board or other appropriate licensing board when they
                    determine that a physician or practitioner should enter into a corrective
                    action plan.16
                    To determine which corrective action to take in response to concerns
                    that are not classified as gross and flagrant, CMS instructs QIOs to
                    weigh the probable benefit to the beneficiary’s care against the cost of
                    the action.17 However, this instruction to weigh the cost and benefits
                    does not exclude quality concerns that constitute a substantial violation
                    in a substantial number of cases, which by statute and regulation must
                    be treated the same as those concerns classified as gross and flagrant.18
                    CMS requires QIOs to enter their review findings into their data
                    systems for pattern analysis. CMS instructs QIOs to analyze data on an
                    ongoing basis to identify opportunities for improvement.19




                      14 Social Security Act § 1156(b)(1) and 42 CFR § 1004.70. 

                      15 42 CFR § 1004.20. 

                      16 Social Security Act § 1154(a)(9)(B). 

                      17 Centers for Medicare & Medicaid Services, Transmission of Policy System Control 

                    Number: QIO 2003-14, December 22, 2003.
                      18 Social Security Act § 1156(a)(1); 42 CFR §§ 1004.30(c), 1004.40(a), 1004.80(c)(6).
                      19 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                    Manual,” Chapter 5 – Quality of Care Review (5050), rev. 9, August 29, 2003.



 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                            5
I N T R O D           U C T        I O N 





                         Table 1: Mandatory QIO Review Responsibilities

             Category                        Authority                         Description

   Written beneficiary              Social Security Act             Complaints filed by beneficiaries
   complaints                       § 1154(a)(14)                   alleging poor quality of care

   Alleged antidumping              Social Security Act             Allegations of hospitals failing to
   violations (violations of the    § 1154(a)(16)                   provide appropriate medical
   Emergency Medical                                                screening examination, stabilizing
   Treatment and Labor Act                                          treatment, or an appropriate
   (EMTALA) )                                                       transfer to another hospital, as
                                                                    required by law

   Beneficiary appeals of notices   HINN: Social Security Act       Appeals by beneficiaries of notices
   of noncoverage, including        § 1154(e)(1)                    issued by hospitals (HINN) or
   Hospital-Issued Notices of                                       Medicare + Choice (now Medicare
   NonCoverage (HINN) and           NODMAR: 42 CFR                  Advantage) programs (NODMAR)
   Notices of Discharge and         § 422.622                       indicating that there is no coverage
   Medicare Appeal Rights                                           in place for inpatient hospital care
   (NODMAR)

   Hospital Payment                 QIO Manual, Chapter 11 –        Referrals by special fraud
   Monitoring Program               Hospital Payment                contractors aimed at identifying
   requirements                     Monitoring Program § 11010      area trends in inappropriate billing;
                                                                    review results are used to estimate
                                                                    State and national payment error
                                                                    rates

   Hospital-requested higher-       42 CFR § 476.71(c)(2)           Validations following all
   weighted diagnostic related                                      intermediary-approved requests by
   group (DRG) validations                                          hospitals for higher weighted DRG
                                                                    adjustments

   Requests for assistants at       Social Security Act             Preprocedural validation of the
   cataract surgery                 § 1154(a)(8)                    existence of a complicating medical
                                                                    condition warranting an assistant
                                                                    during a cataract surgery

   Requests by CMS, fiscal          QIO Manual, Chapter 4 –         Review requests varying in scope
   intermediaries, and other        Case Review § 4070              and setting
   designated CMS contractors




 OEI-01-06-00170       QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                       6
I N T R O D        U C T      I O N



                    Recent Interest in QIOs
                    In 2003, Congress directed the Institute of Medicine of the National
                    Academy of Sciences (IOM) to conduct an evaluation of QIOs. This
                    mandate included reviewing the extent to which QIOs improve the
                    quality of care for Medicare beneficiaries and the extent to which other
                    entities could perform such functions as well as or better than QIOs.20
                    IOM released a preliminary version of its report in February 2006. The
                    report found that the quality of care received by Medicare beneficiaries
                    has improved over time but that existing evidence was inadequate to
                    determine the extent to which QIOs have contributed directly to that
                    improvement. IOM recommended that case reviews be continued but
                    that CMS consider removing this function from QIOs. CMS could
                    instead contract at the national or regional level with a smaller number
                    of organizations.21
                    A July 2005 Washington Post article criticized QIOs for lack of
                    meaningful responses to beneficiary complaints and cited a decline in
                    sanction recommendations made by QIOs over the past 2 decades.22 In
                    December 2005, the Senate Committee on Finance requested that OIG
                    evaluate the QIOs’ role in protecting Medicare beneficiaries from poor
                    quality of care.
                    Previous Work
                    OIG has conducted several evaluations of QIOs’ activities since their
                    establishment in 1982. Past inspection reports covered topics such as
                    the QIOs’ role in identifying poorly performing providers, their sanction
                    recommendation authority, and the beneficiary complaint process.23




                      20 Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                    P.L. 108-173 § 109(d).
                      21 Institute of Medicine of the National Academies, “Medicare’s Quality Improvement

                    Organization Program: Maximizing Potential,” 2006.
                      22 Gilbert M. Gaul, “Once Regulators, Now Partners,” The Washington Post,
                    July 26, 2005, p. A01.
                      23 Department of Health and Human Services, Office of Inspector General, “The Sanction

                    Referral Authority of Peer Review Organizations,” OEI-01-92-00250, April 1993.
                      Department of Health and Human Services, Office of Inspector General, “The Medicare
                    Peer Review Organizations’ Role in Identifying and Responding to Poor Performers,”
                    OEI-01-93-00251, December 1995.
                      Department of Health and Human Services, Office of Inspector General, “The Medicare
                    Beneficiary Complaint Process: A Rusty Safety Valve,” OEI-01-00-00060, August 2001.



 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                          7
I N T R O D        U C T      I O N 




                    METHODOLOGY
                    Scope
                    We analyzed all cases QIOs selected for review between February 1,
                    2003, and January 31, 2006. This date range largely corresponds to the
                    QIOs’ Seventh Statement of Work. QIOs started to transition to the
                    Eighth Statement of Work on August 1, 2005, and finished the
                    transition on February 1, 2006. During this transitional period their
                    case review responsibilities did not change.
                    Analysis
                    We use the term “case” to refer to a unique Medicare claim that a QIO
                    selected for any type of review. We counted a case as receiving a quality
                    review if the QIO completed the quality review process for that case
                    (i.e., the case would receive no further reviews because of a provider
                    appeal or request for rereview).24 We also counted a case as receiving a
                    quality review if, in the first step of a quality review, the nonphysician
                    reviewer did not identify any potential quality concerns. This review is
                    separate from the quality screening that QIO reviewers perform on
                    payment, utilization, or noncoverage cases. We did not count this
                    screening as a quality review.

                    We counted a quality concern as confirmed if the highest level of
                    physician review resulted in a confirmed concern. We counted a case as
                    having a confirmed quality concern if the QIO confirmed at least one
                    quality concern from it. We counted a corrective action as recommended
                    if the QIO recommended that action in response to a case with a
                    confirmed quality concern.

                    We reviewed documentation detailing examples of recommended
                    corrective actions and interviewed staff from three QIOs. We
                    purposively selected the QIOs based on geographic diversity and size.
                    Please see Appendix A for a full discussion of our methodology.
                    Limitations
                    We relied on case review data that were self-reported by QIOs for our
                    analysis. We did not independently verify these data.




                      24 We identified 606 cases in which the outcome of the review process was pending. We
                    excluded these cases from our analysis.



 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                            8
I N T R O D        U C T      I O N


                    Standards
                    We conducted this study in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-06-00170    QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS     9
  F   I N D I N G        S
 Δ        F I N D I N G S 




    QIOs selected over 300,000 cases for review              QIOs selected 318,018 cases for
between February 1, 2003, and January 31, 2006,              review during this time period.
     and reviewed about 11 percent of them for               These reviews covered payment
                                                             and utilization issues, notices of
                                 quality of care
                                                             noncoverage, and quality of care.
                        The most common reasons QIOs selected a case were for payment
                        issues. Cases selected as part of the Hospital Payment Monitoring
                        Program (HPMP) and for higher weighted DRG requests accounted for
                        almost 60 percent of all cases. No other single review category
                        accounted for more than 7 percent of cases. See Table 2 below for the
                        number of cases selected for review, arrayed by the original reason for
                        their selection. (See Table B1 in Appendix B for a complete array of
                        reasons for selection.)

                        Table 2: Cases by Original Reason for Selection

                             Reason for Selection           Number of Cases              Percentage

                             HPMP                                           95,526                 30%

                             DRG Assignments                                89,773                 28%

                             Referrals                                      22,297                  7%

                             Primary Data Collection                        20,932                  7%

                             QIO Selected                                   20,235                  6%

                             Appeals                                        20,175                  6%
                             Beneficiary and
                                                                            18,550                  6%
                             Anonymous Complaints
                             HINN                                           17,287                  5%

                             Other*                                         13,243                  5%

                             Overall Total                               318,018                  100%
                        Source: Office of Inspector General analysis of case review data, 2006.
                        * Comprises nine reasons for selection.



                        Of the 318,018 cases, QIOs completed quality-of-care reviews on
                        11 percent of them (34,768 cases). The two most common reasons QIOs
                        selected cases for review, HPMP and higher weighted DRG requests, do
                        not require a full quality review. In these and most other types of cases,
                        QIO reviewers must screen for potential quality concerns during the
                        course of the original review. If the reviewer identifies a potential


      OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                   10
F   I N D I N G        S


                      quality concern, that case receives a subsequent full quality review.
                      Some cases, such as most of those originating from written beneficiary
                      complaints, automatically require a quality review.25 Sixty-two percent
                      of the cases that received a completed quality review did not originally
                      require one (21,570 of 34,768 cases). See Table 3 below for the number
                      of cases that received a quality review, arrayed by the original reason
                      for their selection. (See Table B2 in Appendix B for a complete array of
                      reasons for selection.)

                      Table 3: Cases That Received a Quality Review by
                      Original Reason for Selection

                           Reason for Selection               Number of Cases            Percentage
                           Beneficiary and Anonymous
                                                                          13,679                      39%
                           Complaints

                           HPMP                                            7,400                      21%

                           DRG Assignments                                 5,737                      17%

                           Referrals                                       4,642                      13%

                           Intensified Review                              1,622                      5%

                           HINN                                               571                     2%

                           Other*                                          1,117                      3%

                           Overall Total                                34,768                   100%
                      Source: Office of Inspector General analysis of case review data, 2006.
                      * Comprises 11 reasons for selection.




                         25 As shown in Table 3, not all beneficiary complaint cases selected for review received a

                      completed quality review. We identified 625 cases in which the quality review had not
                      started at the time we received the case review data, 234 cases in which the review was not
                      yet completed, and 507 cases that the QIO determined did not require a quality review. We
                      identified 1,610 cases for which we can not accurately determine the reason the QIO did not
                      complete a quality review.



    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                            11
F   I N D I N G        S 





       QIOs confirmed a quality concern in about              QIOs confirmed one or more
        19 percent of those cases that received a             quality concerns in 19 percent of
                           quality-of-care review             the cases on which they
                                                              completed a quality review
                      (6,439 of 34,768 cases). In these cases one or more physician reviewers
                      confirmed a quality concern. QIOs confirmed 10,110 individual quality
                      concerns in these cases (a single case can have multiple confirmed
                      quality concerns). See Table 4 below for the number of cases that had a
                      quality concern, arrayed by the original reason for their selection. (See
                      Table B3 in Appendix B for a complete array of cases by reason for
                      selection.)

                      Table 4: Cases With at Least One Confirmed Quality Concern by
                      Reason for Selection

                                                        Number of Cases Number of Cases
                                                         That Received a With at Least One Percentage of Cases
                                                        Completed Quality Confirmed Quality With a Confirmed
                        Reason for Selection                 Review           Concern        Quality Concern
                        Beneficiary and
                                                                       13,679                   2,574      19%
                        Anonymous Complaints

                        HPMP                                            7,400                   1,335      18%

                        DRG Assignments                                 5,737                     919      16%

                        Referrals                                       4,642                     779      17%

                        Intensified Review                              1,622                     409      25%

                        HINN                                               571                    163      29%

                        Other*                                          1,117                     260      23%

                        Overall Total                                34,768                     6,439     19%
                      Source: Office of Inspector General Analysis of case review data, 2006.
                      * Comprises 11 reasons for selection.


                      Physicians were the source of the confirmed concern in 4,451 cases, and
                      facilities were the source in 1,935 cases. Medicare Advantage plans
                      were the source in 25 cases, and 28 cases had no attributed source. A
                      specific physician or facility was the source of a confirmed concern in
                      multiple cases in the time period we examined. For example,
                      282 physicians and 620 facilities were the source of a confirmed quality
                      concern in more than one case. Because no classification exists in the
                      database we analyzed regarding care that constituted a substantial


    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                        12
F   I N D I N G 
S


                      violation in a substantial number of cases, we were unable to learn
                      whether QIOs determined if these providers met this condition.
                      QIOs assigned the lowest level of concern to half of the cases with a
                      confirmed quality concern; rarely did QIOs assign the most severe level of
                      concern
                      In 50 percent of the cases with a confirmed concern, QIOs assigned the
                      lowest concern classification, “care could reasonably have been expected
                      to be better.” For example, we reviewed such a concern that dealt with
                      a beneficiary who did not receive adequate pain management.

                      QIOs assigned the next level of classification, “care failed to follow
                      generally accepted guidelines or usual practice,” to concerns in about
                      31 percent of cases. For example, we reviewed a concern with this
                      classification that involved a beneficiary who was inappropriately
                      medicated, for which a QIO reviewer determined that the beneficiary
                      received duplicate beta blocker medication.

                      QIOs assigned the most severe classification, “care provided was a gross
                      and flagrant violation,” in about 2 percent of cases. One example of
                      such a concern we reviewed dealt with a beneficiary who died after
                      being given an anesthesia drug to which she was allergic. While the
                      allergy was known prior to surgery, that information was not noted on
                      records used during the surgery. The QIO case review database did not
                      record data on quality concerns classified as “substantial violations in a
                      substantial number of cases.” These types of cases are described in the
                      statute, regulations, and QIO Manual as being equivalent to the “gross
                      and flagrant” violations that are given the most severe classification.26
                      The data did not contain classifications for about 17 percent of cases.

                      Cases that did not originally require a quality review proved to be a rich
                      source of confirmed concerns
                      Cases that did not originally require a quality review comprised
                      61 percent of the cases with a confirmed quality concern (3,927 of
                      6,439 cases). In these cases, a QIO reviewer identified a potential
                      quality concern during a payment or other type of nonquality review,
                      and the QIO subsequently performed a full quality review.



                        26 Social Security Act § 1156(a)(1); 42 CFR §§ 1004.30(c), 1004.40(a), 1004.80(c)(6);

                      “Quality Improvement Organization Manual,” Chapter 4 – Case Review (4000, 4105), rev. 2,
                      July 11, 2003; Chapter 9 – Sanction and Abuse Issues (9000), rev. 12, October 3, 2003.



    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                            13
F   I N D I N G        S


                      QIOs originally selected most of these cases for payment-related
                      reviews. Cases from the HPMP and higher weighted DRG assignments
                      comprised 57 percent of these cases (2,254 of 3,927 cases). Because
                      these two categories comprised the greatest number of all the cases
                      QIOs selected for review, it is not surprising that they resulted in a
                      large number of confirmed concerns. However, the number of payment-
                      related cases that also received quality reviews does show that QIO
                      reviewers are looking for and finding quality concerns in nonquality
                      reviews.

                      Cases that did require a quality review accounted for 39 percent of all
                      cases with a quality concern (2,512 of 6,439 cases). From this group,
                      cases resulting from beneficiary complaints comprised the greatest
                      number of cases with a quality concern.


      QIOs recommended a corrective action in                 In every case with a confirmed
    72 percent of cases with a confirmed quality              quality concern, QIOs must send a
                                       concern                notification of their findings to the
                                                              provider. Unless the concern
                      poses severe risk, is a gross and flagrant violation, or is indicative of a
                      pattern of poor care, CMS does not require the QIO to take further
                      action.27 QIOs did recommend 5,125 corrective actions in
                      4,645 (72 percent) of the cases with a confirmed concern. One case can
                      have multiple corrective actions (e.g., a QIO may require a provider to
                      implement a quality improvement plan and may also initiate intensified
                      review on that provider). See Table 5 on page 15 for the frequency of
                      QIO-recommended corrective actions.
                      The two least severe corrective actions accounted for almost 70 percent of
                      all recommended corrective actions
                      The two most commonly recommended corrective actions, considering
                      an alternative approach to future care and offering advice, comprised
                      68 percent of all recommended actions. QIOs can recommend that
                      providers consider an alternative approach for any classification of a
                      confirmed quality concern. This action is designed to communicate to
                      the provider guidelines, usual practice, or advice regarding best




                       27 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                      Manual,” Chapter 4 – Case Review (4700).



    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                    14
F   I N D I N G        S


                      practices. Offering advice is similar to recommending an alternative
                      approach but is used to address less serious concerns.28
                      In our review, an example of an alternative approach was a case in
                      which the QIO questioned whether a beneficiary’s course of treatment
                      was aggressive enough. After the provider in question explained the
                      rationale for this treatment more fully, the QIO deemed the concern
                      resolved. It recommended to the provider that, in future cases, such
                      explanations should be contained in the medical records so that all
                      relevant personnel would be aware of the treatment plan.

                      A more intensive measure to address a confirmed concern is for
                      providers to implement a quality improvement plan. QIOs instructed
                      that providers implement quality improvement plans 1,283 times.
                      Representatives from QIOs whom we interviewed told us that their
                      QIOs typically let the provider develop the plan and then submit it for
                      approval. The QIOs offer guidance to the provider on elements the plan
                      must contain, such as the specific steps the provider will take to address
                      the concern, how the provider will monitor the plan, and how it will be
                      evaluated. Some QIOs send a tip sheet to the provider that lists and
                      describes these elements.

                      In one quality improvement plan we reviewed, a provider developed
                      education programs for staff that focused on increasing knowledge and
                      critical thinking skills. The provider also revised policies and
                      procedures and developed staff competency assessments. The case
                      involved nursing staff not reporting a patient’s deteriorating status to
                      the physician timely. Other quality improvement plans we reviewed
                      similarly consisted of staff training programs.
                      QIOs rarely initiated sanction activity in response to a confirmed concern
                      QIOs recommended the two most severe actions, initiation of sanction
                      activity and referral to licensing boards, 31 and 54 times, respectively.29
                      The initiation of sanction activity does not automatically mean that a
                      QIO will make a sanction referral to OIG. The successful completion of
                      a corrective action plan could resolve the case without the need for a
                      sanction referral. QIOs classified care as a gross and flagrant violation


                        28 Centers for Medicare & Medicaid Services, Transmission of Policy System Control

                      Number: QIO 2003-14, December 22, 2003.
                        29 When a QIO refers a case to OIG, the QIO must also provide notice to the State

                      medical board or other appropriate licensing board. 42 CFR § 1004.70(c). However, not all
                      cases referred to a licensing board are referred to OIG for sanctions.



    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                         15
F   I N D I N G        S


                      in 19 of the 31 cases in which they initiated sanction activity. They
                      classified care as a gross and flagrant violation in 17 of the 54 cases
                      involving referral to licensing boards and as failing to follow generally
                      accepted guidelines or usual practice in 33 of those cases.

                      Finally, QIOs initiated intensified review 264 times. QIOs can take this
                      action when a confirmed quality concern appears to be the result of a
                      systemic issue that spreads beyond that particular case.30
                      QIOs imposed no corrective actions in 1,794 (28 percent) cases with a
                      confirmed quality concern
                      If a quality concern does not pose a severe risk or is not a gross and
                      flagrant violation, CMS does not require QIOs to take further action
                      unless a pattern of poor care emerges that would indicate a substantial
                      violation in a substantial number of cases.31 For example, we reviewed
                      documentation from two cases in which a QIO confirmed a quality
                      concern and did not take a corrective action. The QIO did not classify
                      care in either case as a gross and flagrant violation. In both cases, the
                      QIO stated that because the concern was a single instance of a problem
                      and not indicative of a pattern of poor care, it would take no further
                      action beyond notifying the provider of its findings.

                      Table 5: Number and Type of Recommended Corrective
                      Actions
                                                                                         Percentage of All
                                                               Number of Times            Recommended
                           Corrective Action                    Recommended              Corrective Actions

                           Alternative Approach                                2,054                    40%

                           Offer Advice                                        1,439                    28%

                           Quality Improvement Plan                            1,283                    25%

                           Intensified Review                                    264                     5%

                           Referral to Licensing Body                              54                    1%

                           Initiation of Sanction Acitvity                         31                   <1%

                           Overall Total                                      5,125                   100%
                      Source: Office of Inspector General analysis of case review data, 2006.




                        30 Ibid.
                        31 Centers for Medicare & Medicaid Services, “Quality Improvement Organization
                      Manual,” Chapter 4 – Case Review (4700).



    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS                          16
F   I N D I N G        S
Δ       C O N C L U S I O N                       




                      Our evaluation documents the scope of QIOs’ quality review activities
                      between February 1, 2003, and January 31, 2006. We found that QIOs
                      selected more than 300,000 cases for review, for issues ranging from
                      hospital payments to beneficiary complaints. They found sufficient
                      concern about quality of care to perform quality reviews on nearly
                      35,000 of those cases. QIO physician reviewers confirmed that quality-
                      of-care concerns existed in about 6,500 cases. In response, QIOs
                      recommended corrective actions to address the concerns in 72 percent of
                      those cases.
                      These numbers show that QIOs are using their statutory authority to
                      perform case reviews. In fact, QIOs have long had the potential to be an
                      essential frontline mechanism through which Medicare can oversee the
                      quality of care for which it pays.

                      However, QIOs assigned more than 80 percent of confirmed quality
                      concerns to one of the two least serious classifications, “care could
                      reasonably have been expected to be better” or “care failed to follow
                      generally accepted guidelines or usual practice.” QIOs assigned the
                      most severe classification, “care provided was a gross and flagrant
                      violation,” in about 2 percent of cases. In addition, we could not
                      determine from the data whether any case constituted a substantial
                      violation in a substantial number of cases.

                      Likewise, 70 percent of the corrective actions that QIOs recommended
                      either called for providers to consider an alternative approach to future
                      care or offered advice. These are the least severe corrective actions
                      available to QIOs. Further, QIOs recommended no corrective actions in
                      28 percent of the cases with a confirmed quality concern. QIOs
                      recommended the two most severe actions, initiation of sanction referral
                      and referral to a licensing board, in less than 2 percent of the corrective
                      actions during this 3-year period.

                      Outside the QIO program and its authorities, Medicare has no other
                      single mechanism with a comparable scope to perform case reviews and
                      take such a range of corrective actions with providers. However, this
                      review raises questions for CMS to consider in its administration of the
                      QIO program. It should consider whether it needs to revisit its
                      guidance regarding classifications of confirmed quality concerns,
                      particularly with respect to care that might constitute a substantial
                      violation in a substantial number of cases. CMS could also examine
                      whether it needs to revise its guidance on corrective actions.

    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS          17
C O   N C L        U S I O     N      





                     AGENCY COMMENTS
                     In its comments on our draft report, CMS noted that it is currently
                     evaluating the QIO case review process for reviewing and classifying
                     quality-of-care concerns. CMS also recently implemented a revised
                     array of quality improvement activities (formerly known as corrective
                     action plans) for QIOs to recommend to providers. QIOs can
                     recommend these new improvement activities even in cases where they
                     did not identify quality-of-care concerns. These cases would include
                     such issues as poor communication with beneficiaries or insufficient
                     billing and coding practices. CMS now requires QIOs to implement
                     quality improvement activities in a certain percentage of cases in which
                     QIOs do identify quality-of-care concerns. CMS’s comments did not
                     warrant any revisions to the results of our review. For the full text of
                     CMS’s comments, see Appendix C.




 OEI-01-06-00170     QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS      18
Δ      A P P E N D I X                  ~      A       





                  METHODOLOGY
                  Analysis of Case Review Data
                  QIOs collect and report case review data. For each case given a quality
                  review, reviewers record the initial reason for the medical record review
                  (e.g., a beneficiary complaint), their determination about the quality of
                  care provided, the corrective action recommended to address any quality
                  concerns, and the Medicare identification number of the provider under
                  review, among other items. QIO reviewers enter these and other data
                  into a database called the Case Review Information System (CRIS).
                  CMS implemented this system during the QIOs’ Seventh Statement of
                  Work. (The CRIS is a module of CMS’s Standard Data Processing
                  System. The system is developed and maintained, under contract, by
                  the Iowa Foundation for Medical Care QIO.)

                  We analyzed all cases QIOs selected for review between February 1,
                  2003, and January 31, 2006. This date range largely corresponds to the
                  QIOs’ Seventh Statement of Work. Although QIOs first transitioned to
                  the Seventh Statement of Work on August 1, 2002, CMS did not require
                  them to submit case review data to the CRIS until February 1, 2003.
                  QIOs started to transition to the Eighth Statement of Work on
                  August 1, 2005, and finished this transition on February 1, 2006.
                  During this transitional period their case review responsibilities did not
                  change.

                  We use the term “case” to refer to a unique Medicare claim that a QIO
                  selected for review. Because a QIO can review one case for multiple
                  reasons, we identified, by date, the original reason the QIO selected the
                  case. From this reason for selection, we determined whether or not the
                  case originally required a quality review.

                  We counted a case as receiving a quality review if the QIO completed
                  the quality review process for that case (i.e., the case would receive no
                  further reviews because of a provider appeal or request for rereview).
                  We also counted a case as receiving a quality review if, in the first step
                  of a quality review, the nonphysician reviewer did not identify any
                  potential quality concerns.

                  We counted a quality concern as confirmed if its highest level of
                  physician review confirmed the concern. That means any second- or
                  third-level physician review had to uphold the initial finding of a


OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS         19
A   P   P E N D       I X      ~     A


                      confirmed quality concern. We counted a case as having a confirmed
                      quality concern if the QIO confirmed at least one quality concern from
                      that case. We then counted only those cases for which the QIO
                      completed the review process.

                      We counted a corrective action as recommended if the QIO
                      recommended that action in response to a case with a confirmed quality
                      concern. To identify cases that had no recommended corrective actions,
                      we analyzed all confirmed quality concerns for a case and identified
                      cases for which none of those confirmed concerns had a recommended
                      action.
                      To determine how many providers rendered care in multiple cases with
                      a confirmed quality concern, we analyzed all cases for which a physician
                      or facility was the source of the concern and then identified physician or
                      facility identification numbers that appeared in more than one case.
                      Data Request and Interviews with QIOs
                      We reviewed documentation and interviewed staff from three QIOs. We
                      purposively selected the QIOs based on geographic diversity and size.
                      We reviewed examples of corrective actions the QIOs recommended in
                      response to both confirmed and resolved quality concerns. Our
                      interviews covered how the QIOs performed pattern analysis, how their
                      reviewers screened for quality concerns in nonquality reviews, and
                      general topics pertaining to their case review activities.
                      Limitations
                      We relied on case review data that were self-reported by QIOs to the
                      CRIS for our analysis. We did not independently verify these data.




    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS        20
A   P   P E N D            I X          B
Δ       A P P E N D I X                             ~         B        




               Table B1: Cases by Original Reason for Selection
                                                            Number of
                 Reason for Selection                         Cases              Percentage

                 HPMP                                                95,526               30%

                 DRG Assignments                                     89,773               28%

                 Referrals                                           22,297                7%

                 Primary Data Collection                             20,932                7%

                 QIO Reason                                          20,235                6%

                 Appeals                                             20,175                6%
                 Beneficiary and Anonymous
                                                                     18,550                6%
                 Complaints
                 HINN                                                17,287                5%

                 Intensified Review                                   4,155                1%
                 Long Term Care Hospital
                                                                      2,779               <1%
                 Sample
                 EMTALA                                               2,751               <1%

                 NODMAR                                               2,351               <1%

                 Cost Outlier                                              796            <1%

                 Readmission                                               232            <1%

                 Sanction                                                  106            <1%

                 Fraud and Abuse                                            59            <1%

                 Cataract Assistants                                       14             <1%

                 Overall Total                                    318,018                100%
               Source: Office of Inspector General analysis of case review data, 2006.




    OEI-01-06-00170          QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS     21
A   P   P E N D            I X           ~        B         



               Table B2: Cases That Received a Quality Review by
               Reason for Selection
                                                         Num ber of
                  Reason for Selection                     Cases                   Percentage
                  Beneficiary and
                                                                    13,679                    39%
                  Anonymous Complaints
                  HPMP                                               7,400                    21%

                  DRG Assignments                                    5,737                    17%

                  Referrals                                          4,642                    13%

                  Intensified Review                                 1,622                      5%

                  HINN                                                  571                     2%

                  Primary Data Collection                               306                   <1%

                  Appeals                                               216                   <1%
                  Long Term Care Hospital
                                                                        204                   <1%
                  Sample
                  Cost Outlier                                           99                   <1%

                  Readmission                                            95                   <1%

                  Sanction                                               60                   <1%

                  QIO Selected                                           54                   <1%

                  NODMAR                                                 41                   <1%

                  EMTALA                                                 39                   <1%

                  Fraud and Abuse                                          2                  <1%

                  Cataract Assistants                                      1                  <1%

                  Overall Total                                   34,768                     100%
               So urce: Office o f Inspecto r General analysis o f case review data, 2006.




    OEI-01-06-00170          QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS          22
A   P   P E N D              I X         ~        B        




        Table B3: Cases With at Least One Confirmed Quality Concern by Reason
        for Selection


                                                Number of Cases Number of Cases
                                                 That Received a With at Least One Percentage of Cases
                                                Completed Quality Confirmed Quality With a Confirmed
          Reason for Selection                       Review           Concern        Quality Concern

          Fraud and Abuse                                             2               1            50%

          EMTALA                                                    39               19            49%

          NODMAR                                                    41               15            37%

          Appeals                                                  216               77            36%

          QIO Reason                                                54               16            30%

          HINN                                                     571              163            29%

          Sanction                                                  60               17            28%

          Intensified Review                                     1,622              409            25%

          Readmission                                               95               19            20%

          Long Term Care Hospital
                                                                   204               40            20%
          Sample
          Beneficiary and Anonymous
                                                                13,679            2,574            19%
          Complaints
          HPMP                                                   7,400            1,335            18%

          Referrals                                              4,642              779            17%

          DRG Assignments                                        5,737              919            16%

          Cost Outlier                                              99               14            14%

          Primary Data Collection                                  306               42            14%

          Cataract Assistants                                         1               0             0%

          Overall Total                                        34,768             6,439         18.5%
        Source: Office of Inspector General Analysis of case review data, 2006.




    OEI-01-06-00170           QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS             23
Δ   A P P E N D I X                  ~      C


     Agency Comments




OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS   24
A   P   P E N D       I X      ~     C




    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS   25
A   P   P E N D       I X      ~     C




    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS   26
A   P   P E N D       I X      B
Δ       A C K N O W L E D G M E N T S                                    




                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General.

                      Kenneth R. Price served as the team leader for this study and Ivan E.
                      Troy served as the lead analyst. Central office staff who contributed
                      includes Doris Jackson.




    OEI-01-06-00170   QUALITY CONCERNS IDENTIFIED THROUGH QIO MEDICAL RECORD REVIEWS        27
